I
No.

IN THE
SUPREME COURT OF THE UNITED STATES

Matthew Jones

-PETITIONER

Vs.
Police Captain Alice Brumbley-RESPONDENT

PROOF OF SERVICE

I, Matthew Jones, do swear or declare on this date, August 3rd, 2020, as
required by the Supreme Court Rule 29 I have served and enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR
WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to
a third-party commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:
1. Police Captain Alice Brumbley, Troop 5, 9265 Public Safety Way,
Bridgeville, DE 19933
2. Attorney General of Delaware, Department of Justice, 820 N. French St.,
Wilmington, DE 19801
3. Solicitor General of the United States: Room 5614, Department of Justice,
950 Pennsylvania Ave., N.W., Washington, DC 20530-0001

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 3rd, 2020.

Matthew Jones
11366 Sussex Highway
Greenwood, Delaware 19950
AzraelLinusSmith@.grnai 1. com
(302) 349-5251

